//
/
/

/
/

ALD-079

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-2637
HASAN SHAREEF,
Appellant
v.

BRIAN PALKO, Officer; WILLIAM T. FULLERTON, Judge;
TIMOTHY F. MCCUNE, Judge; THOMAS DOERR, Judge;
TERRY L. SCHULTZ, District Attorney;
MARK LOPE, District Attorney; CHUCK M. NEDZ, Lawyer;
CINGOLANI, Lawyer; and ANDREW O. STIFFLER, Lawyer
On Appeal from the United States District Court
for the Western District of Pennsylvania
. (D.C. Civ. No. 2:19-cv-01330)
District Judge: Honorable J. Nicholas Ranjan
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2), or for
Possible Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
January 28, 2021
Before: MCKEE, GREENAWAY, JR. and BIBAS, Circuit Judges
(Opinion filed: March 16, 2021)
OPINION*

\

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Received
APR 1 3 2021

\

PER CURIAM
Hasan Shareef is serving a prison sentence as a result of convictions for violating
Pennsylvania’s drug and gun laws. Proceeding pro se and in forma pauperis, Shareef filed
in the District Court a civil rights action against the officer who arrested him, two
assistant district attorneys that prosecuted him, three judges that handled aspects of his
criminal case, and three defense attorneys that represented him at various junctures.
Shareef raised claims of false arrest, false imprisonment, and malicious prosecution.1
The Magistrate Judge screened Shareef s complaint under 28 U.S.C. §§ 1915(e)(2)
and 1915A(a) and then issued a report recommending that the complaint be dismissed sua
sponte. The Magistrate Judge concluded that the judges and prosecutors are absolutely .
immune from civil liability and—in the case of the judges—suit altogether. The
Magistrate Judge next concluded that Shareef lacked a cognizable claim against the
defense attorneys because none appeared to have acted “under color of state law,” a
required feature of conduct potentially redressable under 42 U.S.C. § 1983. The
Magistrate Judge also concluded—based on Shareef s allegations, as confirmed by
judicially noticeable court records—that because Shareef was arrested in 2016 but did not
file suit until 2019, his claim against the arresting officer fell outside the applicable twoyear statute of limitations and was thus untimely. Finally, the Magistrate Judge concluded
that none of the foregoing defects could be remedied through an amended pleading.

1 Shareef s complaint overlapped to some degree with an earlier, separately filed pleading
that is the subject of his appeal at C.A. No. 20-1863.
2

Over Shareef s objections, the District Court adopted the Magistrate Judge’s
report and recommendation and dismissed the complaint. This appeal followed.
We have jurisdiction under 28 U.S.C. § 1291. Our standard of review is
effectively de novo across the board. See Dooley v. Wetzel 957 F.3d 366, 373 (3d Cir.
2020) (providing that a district court’s sua sponte dismissal for failure to state a claim,
under § 1915A(b)(l) or § 1915(e)(2)(B)(ii), is reviewed de novo); U.S. ex. rel. Schumann
v. AstraZeneca Pharms. L.P.. 769 F.3d 837, 849 (3d Cir. 2014) (reviewing district court’s
denial of leave to amend for abuse of discretion, but reviewing de novo its determination
that amendment would be futile); Figueroa v. Blackburn, 208 F.3d 435, 439 (3d Cir.
2000) (explaining that whether absolute immunity applies is a question of law that is
reviewed de novo).
Shareef s arguments on appeal are disjointed at best. From what we can discern,
’

however, he is generally asking for a trial on several claims, many of which were not
raised below. See, e.g.. Doc. 11 at 1 (“I lost my [criminal] trial because [a corrections
officer] took all my lay work [and] denied me access to courts”). While several of the
newly asserted claims might be appropriate for a post-conviction proceeding, see, e.g..
Doc. 11 at 3 (seemingly arguing that Shareef was denied the right to self-representation);
Doc. 11 at 6 (seemingly arguing that Shareef is in possession of new exculpatory
evidence), they are not appropriate for a civil rights action such as this one. See Preiser v.
Rodriguez. 411 U.S. 475, 500 (1973). Furthermore, to the extent that success on any of
Shareef s civil-law damages claims would necessarily undermine his criminal

3

convictions or sentence, they may not proceed unless and until he has invalidated the
convictions or sentence. See Heck v. Humphrey, 512 U.S. 477, 486-87 (1994).
Ultimately, we conclude that there was no error by the District Court. Based on the
nature of the claims Shareef raised below, the judges and prosecutors he sued are immune
from civil liability. See Bums v. Reed. 500 U.S. 478, 486 (1991); Stump v. Sparkman,
435 U.S. 349, 356-57 (1978). In addition, Shareef does not have a viable civil rights
claim against his former defense attorneys. See Polk County v. Dodson, 454 U.S. 312,
325 fl98D: Blacky. Bayer, 672 F.2d 309, 320 (3d Cir. 1982), abrogated on other
grounds by D.R. v. Middle Bucks Area Vocational Tech. Sch„ 972 F.2d 1364, 1368 n.7
(3d Cir. 1992). It was permissible, moreover, for the District Court to dismiss sua sponte
Shareef s facially untimely claim against the arresting officer. See Jones v. B^ck, 549
U.S. 199, 215 (2007); Fogle v. Pierson, 435 F.3d 1252, 1258 (10th Cir. 2006); see also
Bethel v. Jendoco Constr. Corp., 570 F.2d 1168, 1174 (3d Cir. 1978).2 Finally, the
District Court did not abuse its discretion or otherwise err in dismissing the complaint
without providing Shareef an opportunity to amend, because amendment would have
indeed been futile. See Grayson v. Mavview State Hosp., 293 F.3d 103, 108 (3d Cir.
2002).

Accordingly, for the reasons given above, the judgment of the District Court is
affirmed. See 3d Cir. L.A.R. 27.4 (2011); 3d Cir. I.O.P. 10.6 (2018).

2 It was also permissible for the District Court to take judicial notice, at the screening
stage, of certain facts germane to its timeliness analysis. See Fed. R. Evid. 201(c)-(d)
(allowing a judge to take judicial notice of a fact an “at any stage of the proceeding”).
4

ALD-079
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-2637
HASAN SHAREEF,
Appellant
v.
BRIAN PALKO, Officer; WILLIAM T. FULLERTON, Judge;
TIMOTHY F. MCCUNE, Judge; THOMAS DOERR, Judge;
TERRY L. SCHULTZ, District Attorney;
MARK LOPE, District Attorney; CHUCK M. NEDZ, Lawyer;
CINGOLANI, Lawyer; and ANDREW O. STIFFLER, Lawyer
„ On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civ. No. 2:19-cv-01330)
District Judge: Honorable J. Nicholas Ranjan
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2), or for
Possible Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
January 28, 2021
Before: MCKEE, GREENAWAY, JR. and BIBAS. Circuit Judges
JUDGMENT
This cause came to be considered on the record from the United States District
Court for the Western District of Pennsylvania and was submitted for possible dismissal
pursuant to 28 U.S.C. § 1915(e)(2), or for possible summary action pursuant to Third
Circuit LAR 27.4 and I.O.P. 10.6 on January 28, 2021. On consideration whereof, it is
now hereby

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered July 16, 2020, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: March 16, 2021

Case 2:19-cv-01330-NR-LPL Document 15 Filed 07/13/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
HASAN SHAREEF,
2:19-cv-1330

Plaintiff,
vs.

Hon. J. Nicholas Ranjan
Magistrate Judge Lisa Pupo Lenihan

BRIAN PALKO, et al,
Defendants.

MEMORANDUM ORDER
This is a pro se prisoner civil rights action filed by Plaintiff Hasan
Shareef pursuant to 42 U.S.C. § 1983.

The complaint was referred to

Magistrate Judge Lisa Pupo Lenihan for proceedings in accordance with the
Magistrates Act, 28 U.S.C. § 636(b)(1), and the Local Rules of Court applicable
to Magistrate Judges.
Currently before the Court is a Report & Recommendation filed by Judge
Lenihan on June 17, 2020, recommending that Mr. Shareefs complaint be
dismissed with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) and (iii) and
28 U.S.C. § 1915A(1) and (2).
pursuant to 28

U.S.C.

§

[ECF 13].

Mr. Shareef was notified that,

636(b)(1)(C), objections to the Report &

Recommendation were due by July 6, 2020, and he filed timely Objections on
that date. [ECF 14]. Pursuant to 28 U.S.C. § 636(b)(1)(C), this Court must
now make a de novo determination of those portions of the Report &
Recommendation to which objections were made. The Court may accept, reject,
or modify, in whole or in part, the findings or recommendations made by the

1

Case 2:19-cv-01330-NR-LPL Document 15 Filed 07/13/20 Page 2 of 3

magistrate judge. The Court may also recommit the matter to the magistrate
judge with instructions.
In his objections, Mr. Shareef appears to expound upon many of the same
allegations that he made in his complaint.

Those allegations were aptly

summarized by Judge Lenihan as suggesting “that he was not brought in front
of the same magistrate judge who issued the warrant for his arrest, that the
magistrate judge was not neutral and detached, that he was subject to a
malicious prosecution by the Butler County District Attorney’s Office, that he
was subject to a false arrest and/or imprisonment, and that he complained
about all of this to his defense attorneys who failed to take any action.” [ECF
13, p. 4 (citing ECF 5, pp. 2-3)]. What Mr. Shareef s objections do not provide,
however, is any basis for rejecting Judge Lenihan’s Well-reasoned conclusion
that his claims are barred by the insurmountable combination of Eleventh
Amendment immunity, judicial immunity, prosecutorial immunity, the
limitation of Section 1983 to acts “under color of state law,” and the statute of
limitations.
Thus, upon de novo review of the Report & Recommendation and Mr.
Shareef s objections thereto, the following order is now entered.
.AND NOW/, this 13th da}/ of July, 2020, it is ORDERED that the Report
& Recommendation [ECF 13] is adopted as the Opinion of the Court.
IT IS FURTHER ORDERED that Mr. Shareefs complaint [ECF 5] is
dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) and (iii) and 28 U.S.C.
1915A(1) and (2). The Court finds that amendment of Mr. Shareefs claims
would be futile and so this dismissal is WITH PREJUDICE.

2

Case 2:19-cv-01330-NR-LPL Document 15 Filed 07/13/20 Page 3 of 3

!

IT IS FURTHER ORDERED that, upon entry of final judgment by the
Court, the Clerk of Court mark this case CLOSED.
IT IS FURTHER ORDERED that pursuant to Rule 4(a)(1) of the Federal
Rules of Appellate Procedure, Mr. Shareef has thirty (30) days to file a- notice
of appeal as provided by Rule 3 of the Federal Rules of Appellate Procedure.
/s/ J. Nicholas Rani an
United States District Judge

DATE: July 13, 2020

Cc:

Hasan Shareef
NU-0779
SCI Forest
P.O.Box 307
Marienville, PA 16239

(

3

IN THE COURT OF COMMON PLEAS OF BUTLER COUNTY, PENNSYLVANIA

COMMON WEALTH OF PENNSYLVANIA

C.A.NO.: 1714-2016
O

VS.

o
tr

o

mr . r~

ca'S

n

to

p-i-nS'j®’

Dm

r-o

-rip-'

r?o

o

0=3

In
13
< ::> m
-r

HASAN SHAREEF

1 n D AY POST SENTENCE MOTIONS

>

3C

-_a
cn

-nCl II
— ^:
f

AND NOW COMES the Defendant, Hasan Shareef, by and through his attorneys,
CINGOLANI & CINGOLANI, per

ArmandR. Cingolani, HI, files the following: 10 Day Post

Sentence Motions
1.

Pursuant to Pa.

Crim. Pro. Rule 720 a written post sentence motion shall be filed

no later than 10 days after imposition of sentence.

The Defendant was sentenced on December

20, 2018.
The Defendant requests a motion for Judgment of Acquittal or a Motion for a

2.

New Trial or a Motion to Modify Sentence.
3.

n

7

.

i

Several Omnibus Motions for the Defendant were filed prior to appomted counsel

— His prior counseis at the time filed but they were denied, as
of Armand RXingolani EL
This is not the Defendant’s fault as he had counsel and counsel knew the rules
untimely filed.
and Defendant should not be prejudged by the counsel’s failure to file. EDefendant had an
Omnibus hearing he
charges dismissesd.

—H

j/1 V>' —

would have been able to timely object to several issues and probably had the

4.

Defendant intended to object to the fact that District Justice William O’Donnell

signed the warrant but the District Justice did not hear the case. The magistrate issuing the
warrant or signing the case must hear the case. Under Pa.Crim. Pro .Rule 117, the President
sufficient issuing authorities to provide services to the Defendant, to
Judge must guarantee
ice of warrants and preliminary arraignments and bail. The Defendant was denied a
ensure service

houtogbeforeltaimpartiaMagistrate Wiffiam^O-Domer^tolSWiiserBut hTwasfbrced
case heard before District Judge William Fullerton although the jurisdiction was
to have his
probably with Kevin O’Donnell. This error violates the rules as'William O’Donned issued the

$

case and the address of the property to be searched was East Jefferson St, which should be m the
city of Butler,

All of these irregularities violate Pa. Crim. Pro. Rule 130. B.T. Fullerton should

have been the issuing Magistrate but he was not
5.

Although Pa. Crim. Pro.Rule 130 seems to say any authority can hear a case it

should be heard in the jurisdiction where it occurred by that magistrate. This is confirmed by

l

Rule 131 whereby proceedings should be heard in the jurisdiction where they
Pa.Crim. Pro.
occurred. Therefore the charges should be thrown out for violating the rules.
6.

ll

No warrant was issued to arrest the Defendant in the.house where he was arrested,

police broke into the house without knocking and bounded up the stairs to the attic. There
The
was no reason to go up to the attic to search and seize the Defendant as he was just present and ■
not a threat.
While it is true that Defendant broke a tiny window in the attic and cut his hand,
7.
supposedly in a peculiar claim of escape (although the window appears to be too small to enable
a grown man to escape) that is not a probable cause to arrest him as escaping or running away
are not grounds to justify an arrest.
No warrant was issued to arrest the Defendant in the first place so there is a prima
8.
facie violation of Pa.Crim. Pro. Rule 205, contents of a search warrant.

9.

The police violated Pa. Crim. Pro. Rule 207 manner of entry in premises. They :

just burst in without giving the Defendant a chance to enter the door, This violated his
citizenship rights under the 4th and 5th Amendments so the charges must be dismissed.

10.

Pa.Crim. Pro. Rule 513 was violated because there was no arrest with a prior

warriit based in probable cause.
11.

The Defendant was denied his rights to have an Omnibus Pretrial hearing under

Pa.Crim Pro. Rule 581. The Defendant was denied a hearing because his counsel at the time did
not file timely for a hearing, but that is ineffective assistance of counsel and while his counsel
may be punished, this denial wrongfully prejudices the Defendant who requested an Omnibus

V

Motion from all counsels. If the evidence has been suppressed, then the charges would have
been dismissed and the Defendant could not be convicted at trial. An Omnibus hearing would
have shown the Defendant could not be connected to the evidence against him, that the weapons
and drugs were not his and that the police improperly searched his closed bags and containers
without a warrant in violations of his rights.

u

!

The Defendant was denied a timely trial having been held in jail in an excess of a
12.
year pursuant to Pa.Crim Pro. Rule 600. The charges should have been dismissed.
13.

Under Pa.Crim Pro. Rule 606 the Defendant challenges the sufficiency of the

evidence by to motion for acquittal by this paragraph within 10 days of the trial.
14.

The evidence, improperly obtained, was not in any case sufficient to convict the

Defendant. The fact that guns and drugs were in the vicinity of Defendant in a home use by
many criminals does not prove that the Defendant owned or controlled the drugs and weapons by
mere presence with guns and drugs is not sufficient to prove the Defendant owned or controlled
the weapons.
Under Pa.Crim. Pro. Rule 607 the Defendant challenges the weight of the
15.
evidence and requests a new trial. Neither the testimony of the officers nor the lab report

conclusively lead die jury to conclude the Defendant had ownership or possession or control of
guns and drugs. The lab report did not prove the guns and drugs were his. The testimony of the
officers just bolstered the belief that because guns and drugs were present in a room with

s->

Defendant that they must be his guns and drugs; This is a Post Hoc Propter Hoc.argument, an
assumption that the conclusion proves the premises which are not justified or proven true. The
officers merely restated their beliefs.
The Defendant was denied his paperwork to prepare for trial because it was sequestered
16.
by the jail. He therefore could not properly prepare for trial because he was denied access to his

$

case notes. As a result his winning plans turned into the defeat.
denied a fair trial because the jury discriminated against on the basis
17.
The Defendant was
of his race. For example a juror declared his fear of Defendant and expressed fear that
Defendant would hunt him down.
18.

The Defendant was denied the opportunity by the Court to ask questions of the experts

and the police.
The Court and the prosecutor objected to questions the Defendant wished to ask and the
19.
Court refused to let the Defendant ask the questions his own way. The Defendant was denied the
opportunity to present competent evidence. Competent evidence was excluded.
20.

w

The Defendant had prepared questions for the witnesses and the police and the District

Attorney but since the papers were locked up the Defendant could not reconstruct his case. And
so he was denied the right to participate in his trial.

Min.
22.

The Court did not properly instruct jury on what constitutes constructive possession.
Evidence was not considered at trial by lawyer or Judge McCune that Captain Moore and

Warden Conspired and took the Defendants legal law work needed to defend himself m trial m
violation of Defendants Eighth and Fourteenth Amendment Rights.

r

23.

Outside range of professional competence evidence was excluded.
Defendant’s Counsel, committed misconduct in that evidence was admitted without

proper defense or objection.

I 2526.

False arrest not going in front of Magistrate District Judge who issue warrant..
\

Admitting incompetent evidence and excluding competence evidence errors in

Admission.

/

Defense counsel failed to subpoena Warden and Captain Moore in pretrial hearing and
27.
then again at trial to submit to cross examination about why they withheld or destroyed

^

Defendant’s evidence and trial preparation notes. Defendant believes they deliberately withheld
or destroyed his trial papers.

1 28-

Defendant objects that the court and defense counsel did not properly instruct jury about

witness testimony lab reports and admissibility of evidence.

29.

Counsel did not put motion as evidence for jury.

30.

Need evidentiary hearing see if this true.

31.

Prior counsel Cuebas did not put motion suppress the gun.

f 32.

Pokice Maliciously and without probable cause procured criminal complaint against

Defendant in violation of his fourth and fifth Amendment right against illegal search and seizure.

/I

33.

Conviction was by fraud or pejury or other undue means

34.'

Defendant’s counsel erred in failing to demurrer to the charges at trial and therefore

demurrers in this post-trial motions.

35.

The Defendant complains counsel did not argue the error complained of by appellant

were prejudicial of his substantial rights to receive a fair and impartial trial because the verdict
was palpably agaihst'evidence/ Fuither douhserTailed m not puttuig in due process hearing, and
untimely filing for motion of suppression evidence and failing to file'Motion to Reconsider
Denial of Prior Motions.

WHEREFORE, the relief respectfully requested is reversal of the charges and a new
trial.

Respectfully Submitted,

Armand R. Cingolani

cv~y,
COMMON PLEAS OF BUTLER COUNTY, PENNSVJjVAt'%
IN THE COURT OF

'“3
)

COMMONWEALTH
vs

)
)
)
)

7
)
)
)

Hasan Shareef

RF-SPONSF to
and

CRIMINAL DIVISION

- o'?'Oc>>

ci'p

tp

s'

CP-10-CR-0001714-20T6
CP-10-CR-0000592-2018

■rf«T-----

u">

motion for return of property

NOW comes the County of Butler and Butler County Prison, by and through

Solicitor for the. County of Butler, and in
their counsel, Julie M: Graham, Esquire,
support of the within Response to Motion for Return of Property , avers as follows:

1.

Attorney Amnand R. Cingolani, 111, attorney for
On September 25, 2018
Inmate, Hasan Shareef, filed a Motion for Return of Property.

2.

A hearing was held on Defendant’s Motion on November 1, 2018. The
copy of the Motion for Return of
Movant, Hasan Shareef, did not serve a
the Butler County Prison (the “Prison”), nor did he notify the
Property on
Prison of the hearing scheduled on or about November 1 ,2018.

3

By Order of Court dated November 1, 2018, the Prison was directed to
respond to the allegations made in the Motion for Return* Property withm
30 days of the Order of Court.

4.

On August 14, 2018, immediately prior to inmate Hasan Shareefs move
from the Allegheny County Jail to the Prison six Prison employees were
unknown substance, resulting in those six employees being
exposed to an
transferred to Butler Memorial Hospital for treatment. The Prison was
During the
placed on lockdown status pending an investigation.
discovered to be K2, a
investigation, the unknown substance was

synthetic cannabinoid. While the exposure method remans unknown it is
believed that this substance was infiltrated into the Prison via inmate mail
or personal effects.
Shareef was transported to the Prison
5.
Officer Mark Bowman processed inmate Hasan Shareef into the fee. ty
While searching inmate Hasan
and started to search his property.
employees reported “they began to experience
Shareefs property, both
and irritated skin and burning eyes.' These symptoms were

burning

prior employees experienced on August
similar to the symptoms the six
transported to Butler Memorial Hospital.
14, 2018'when they were
Captain Clyde Moore sealed, the property in a

6.

secure black garbage bag

office for when inmate
and placed the sealed property bag in his secure
Shareef would be released from the Prison. Captain Moore s an
Hasan
subsided to where medical
Correction Officer Bowman’s symptoms
At that time, Captain Moore explained to
treatment was not required.
deemed bio-hazard and to contact
inmate Hasan Shareef his property was
in any legal work to the facility. The incident reports
his attorney to send in
Officer Bowman on this issue are
of Captain Moore and Correction
marked Exhibits A and B,
attached hereto, incorporated herein and
respectively.

7.

, 2018 the Pennsylvania Department of Corrections (“DOC")
On August 29
placed the entire state prison system on an extended lockdown to combat
number of DOC employees becoming sick while being
the numerous
•unknown substance.” Multiple policy changfes were
exposed to an
mail being sent off site and
enacted for the DOC varying from inmate
photocopied, legal mail opening practices, etc.
During the week of September 16-20, Warden DeMore spoke with inmate

8.
Hasan

Shareef about his property.
-3-

The Warden explained to inmate

Shareef that there were concerns

his property was contaminated and was

site for when he was released from
deemed bio-hazard but was stored on. Warden, Joe DeMore, reaffirmed that Captain Moore
the Prison custody
Shareef to have his attorney send any pertinent legal
told inmate Hasan
mail to the facility. Warden DeMore explained in detail that the jail could
have sent his bagged "up property but to 'be'tested for-K2- which would
result in all his property being deemed bio-hazard and consequently could
be destroyed by the haz-mat team/testing agency. Inmate Hasan Shareef
thanke

d Warden DeMore for not sending his property out to be tested and

said he understood.

9.

October 3, 2018 from inmate Hasan
A letter was sent to the Prison on
, Armand Cingolarii, regarding inmate Hasan Shareefs
Shareefs attorney
property. On October 4, 2018 at approximately 1155 hours, Deputy
(“D.W. Sneddon”) spoke to Attorney Cingolani on
Warden Beau Sneddon
telephone about inmate Hasan Shareefs property . Attorney Cingolarii
the
indicated he was “under the impression inmate Hasan Shareefs property
D.W. Sneddon offered Attorney Cingolani the
was destroyed or lost.”
release of property form
option of having inmate Hasan Shareef sign a
and that Attorney Cingolani could take possession of his client’s property.
Copies of the two Prison Incident
Attorney Cingolani refused this option.
documenting this issue are attached
Reports filed by D.W. Sneddon
hereto, incorporated herein and marked Exhibits C and D, respectively.
the above information and difficulties of identifying synthetic

10.

53S6cj ■ on

cannabinoids on property, paperwork, etc. with the naked eye as well as
detection tools, the Prison administration made the decision to mark
bio-hazard and to have it securely
inmate Hasan Shareefs property as
stored and returned to the inmate upon his release from Prison custody.
effort to communicate with
The Prison administration has made every
Hasan Shareef and his attorney to get any needed copies of legal
inmate
material back in his hands through his attorney as well as having inmate
-4-

Hasan Shareef sign a property form releasing his property to his attorney
Armand Cingolani. Safety is paramount and the Prison Administration’s
decision was based solely on keeping all the employees and inmates of
the Prison safe by not re-opening inmate Hasan Shareefs property risking
contamination to any employees or inmates.
11.

In light of the safety issues and risks associated with the return of the
Inmate’s property, the Prison Administration intends to hold his property in
a safe and secure location unless or until the time of his release and/or
transfer at

which point it will be returned to him following appropriate

safety protocols.
12.

Alternatively, the Prison Administration’s previously made proposal that
the inmate execute an authorization for release of this property to his
attorney or other designee remains open.

13.

The Prison has broad discretion in establishing policies and procedures
relative to the handling of inmate property to preserve and protect the
safety of inmates and correctional officers. The course of action identified
herein is within the guidelines established by the Pennsylvania Supreme
Court in, O’Toole v. Pennsylvania Department of Corrections, — A. 3d.—
(2018), 2018 W.L. 4998392.

By:

l

~\
Julie/MlGrahalm
Butler£ounty Solicitor
124 West Diamond Street
P.O.Box 1208
Butler, PA 16003-1208
Telephone No. (724) 284-5100
Fax No. (724)284-5400
PA I.D. No. 36483

Date: November 20. 2018
-5-

butler county prison
i

incident report
Reporting Officer
Incident DateTime:

qs/20/201 8

MOORE, CLYDE

17:00
Location of the Incident:

Location Type

PROCESSING

Incident Type-

INFORMATIONAL

Employees Involved

Inmates Involved
Name
Inmate it

Name

031505

SHAREEF JR, HASAN AL

SCUILLO, MICHAEL
BOWMAN, MARK
KENGERSKI, JEFFREY

from Allegheny County
received 5 new commitments
■■ , as to not mix up any inmates property. As the
Shareef began asking about nis

Narrative

2E52SSSSSS* * TSSSSS--

property after llhasbeenpropery ^ >
thnJ ,he property belonging .lo inmate SharoeLjny njj^ arm,
duration of
l his lime in processing. As I beganlo°lTP^^cted Officer Mike ScJiilo to dawn a protective mask
» began 10 burn> and “'Se baa and ie the bag shut. I then went to my office, and cafied
and both eyes
and gloves, and place the property
" f^^Smination wipes from medical to my office. I relayed.all
Sgt Jeff Kengerski, and asked h.mta bnng th^
in my ofnce,
information to Sgt Kengerski concerning l^ Prope^ P JJed thal he too had a reaction lo said property.
The following day, as I spoke to
n ^ deeymed a bi0Thazard. inmate Shareef was informed of

£ sn;ssss- «■ **

r\ sTi '

tjU

(Mo^—

DATE:.

OFFICER NAME PRINT:

TIME:.

OFFICER NAME SIGN:_
ADMINISTRATION:

DATE AND TIME:.

f r

fl

/

IT”. EXHIBIT
%•
s
08/29/2018 09:19

163 MOORE

6 *U ?

ft .

Page: 1

-'•■N

BUTLER COUNTY PRISON
!

INCIDENT REPORT
BOWMAN, MARK

Reporting Officer
Incident DateTime:
Location Type

08/20/2018 13:45
PROCESSING

Location of the Incident:

PROCESSING

! ncidentType —{N FORMATI O NAL—

Employees Involved

Inmates Involved
Name

Inmate 8

Name

031505

SHAREEF JR. HASAN AL

Narrative

was
Bodied Mb Mm M received small red

SoSso™ l» I spVe »ith
» havin. Cmila, cmpioms -MMO*

Shareefs property. No further incident to report.
Respectfully Submitted,
C/O Mark Bowman

\

DATE:.
OFFICER NAME PRINT:
//*'

________ TIME:__ :

V/fA*

OFFICER NAME SIGN:.
DATE AND TIME:__

ADMINISTRATION:^__
ii
o

u
EXHIBIT

1
1

111 BOWMAN

08/23/2018 08:29

s

l1

3 a
6

s.

Page: 1

<

BUTLER COUNTY PRISON
INCIDENT REPORT
Reporting Officer

Incident DateTime:

SNEDDON, BEAU

1 0/q4/20 1811:55
Location of the Incident:

Location Type
incident Type

Employees Involved

Inmates Involved
Inmate #

Name

031505

SHAREEF Jr,. HASAN ALI

Narrative

On Thu

Name

which CINGALONI was petitioning the courts requesting that the pnson return prope^y in ^ ^ offjcers whQ
Inmate SHAREEF. I advised CINGALONI that the property in ques>
b
P
c|NGALoni

were

M BCP « »di a nuonu

EfS^rauld nolbere^>penin9Uiebagsof .property in

CINGALONI eoold ™p»d ,=

respond

iSS. P«»«y«I- *-»- » “

'“ores”d

he haa no

interest in taking possession of the property.

Beau Sneddon
Deputy Warden of Operations

.T&

yivU***1

CJL o

OFFICER NAME PRINT:

iS-sgaaro

51.it/

DATE:

^'u'^

TIME:.

C5IO

OFFICER NAME SIGN:_
DATE AND TIME:.
ADMINISTRATION:_____

fl

exhibit:

1

.nr.

195 SNEDDON

10/04/2018 15:09

5 3
2
S

1 S.

Page: 1

BUTLER COUNTY PRISON

l

INCIDENT REPORT
SNEDDON, BEAU

Reporting Officer
Incident DateTime:
Location Type

10/04/2018 09:15

Location of the Incident:

BUTLER COUNTY
PRISON

Incident Type

Employees Involved

Inmates Involved
Name

Inmate #

Name

031505

SHAREEF JR, HASAN AL

Narrative

On Thursday, Ociober 4, 2018 a. approximately 0915 I attempted to contad AUomey Armand
to some motions to the court in reference to property belonging to Inmate Hasan SHAREEF. I was ad
female that answered the phone and did not identify herself that C.ngolani was not m the office. The
my contact information and stated that she would have Cingolani call me back.

y^

Beau Sneddon
Deputy Warden of Operations

K<L

>T'/

OFFICER NAME PRINT:
OFFICER NAME SIGN:.

DATE:. •:o -u

•m.

TIME:.
DATE AND TIME:

ADMINISTRATION:___ _

8

7Zr^ir&

EXHIBIT
a

s to

I§ 5
195 SNEDDON

10/04/2018 09:29

$

Page: 1

i

!

VERIFICATION

I, the undersigned, state that I am the Warden of the Butler County Prison; that
the attached Response to Motion for Return of Property is based upon facts which I
are true and
have personal knowledge of and that the facts set forth in the foregoing
correct” to best of my knowledge, information and belief.—I understand that the
statements herein are made subject to the penalties of 18 Pa. C.S. § 4904 relating to
unsworn falsification to authorities.
.•*

C

\

Joe'DeMor6, Warden, Butler County Prison

CERTIFICATE OF SERVICE
I, Julie M. Graham, hereby certify that I served a true and correct copy of the
foregoing Praecipe for Entry of Appearance in the above-captioned matter by First
Class, U.S. Mail to the following on this 20th day of November, 2018:
Armand R. Cingolani, III, Esquire
Cingolani & Cingolani
300 North McKean Street
Butler, PA 16001
Richard A. Goldinger, Esquire
Butler County District Attorney
Third Floor, County Government Center
124 West Diamond Street
P.O. Box 1208
Butler, PA: 16003

JulieJw Graham,
Butlgj/County Solicitor

Commonwealth of Pennsylvania

OFFICE OF ATTORNEY GENERAL
CONSTITUENT SERVICES
16th Floor Strawberry Square
Harrisburg, PA. 17120
-717-787-3391-------------------

JOSH SHAPIRO
ATTORNEY GENERAL

December 28, 2018
Hasan Shareef
Butler County Prison
202 S. Washington Street
Butler, PA 16001
Dear Mr. Shareef,
Thank you for contacting the Office of Attorney General Josh Shapiro. We
received your letter regarding your complaint against the Afesfaeay County Police
Department.
Under Pennsylvania law, the Attorney General cannot give you legal advice or
represent you in any personal matter. You may want to consider consulting a private lawyer
about this issue. If you do not already have a lawyer, you cmcontactthePennsylvmia ar
Association’s Lawyer Referral Service at 717-238-6807 or toll-free at l-80°-692-7375. Tfrey
can also assist you if you need a lawyer but cannot afford to pay for one For addition
information, you can visit their website at http://www.pabar.org/site/Pubhc/lrsblurb.
Sincerely,

Stephen St.Vincent
Director of Policy and Planning

■:(

\

J-A12011-20

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

HASAN SHAREEF
Appellant

No. 815 WDA 2019

Appeal from the Judgment of Sentence Entered December 20, 2018
In the Court of Common Pleas of Butler County Criminal Division at
No(s): CP-10-CR-0001714-2016

BEFORE:

KUNSELMAN, J., KING, J., and COLINS, J.*

MEMORANDUM BY COLINS, J.:

FILED JULY 23, 2020

Appellant, Hasan Shareef, appeals from the judgment of sentence
following his conviction of possession with intent to deliver a controlled
substance ("PWID") and persons not to possess a firearm.1 We affirm.
On May 27, 2016, Trooper Brian Palko of the Pennsylvania State Police
executed a search warrant at a three-story residential duplex on East Jefferson
Street in Butler, Pennsylvania, related to Trooper Palko's investigation of a
burglary of a boat rental business. When Trooper Palko knocked on the door
of the residence to announce the presence of the officers, the unlatched front
door swung open. Trooper Palko and the troopers who accompanied him then

* Retired Senior Judge assigned to the Superior Court.
1 35 P.S. § 780-113(a)(30); 18 Pa.C.S. § 6105(a)(1).

J-A12011-20

conducted a protective sweep of the first floor of the residence but did not find
anyone present.
While clearing the first floor, Trooper Palko heard glass breaking from
the upper floors of the residence and requested that the individual who was
responsible for the noise come downstairs. When no one came down, Trooper
Palko ascended the steps to the third floor and found Appellant emerging from
a cubby hole with bloody hands from the broken glass. While sweeping the
upstairs area, Trooper Palko observed a handgun in plain view on a ledge,
another handgun sticking out of an open black leather bag behind a couch,
and a glassine bag commonly used in drug trafficking. No one else aside from
Appellant was discovered at the residence.
After securing Appellant, Trooper Palko applied for a second search
warrant related to potential drug activity at the residence,

From the black

leather bag where the handgun was found, the troopers recovered multiple
bags of cocaine and heroin, suboxone strips, various pills, drug paraphernalia,
and approximately $6,000 in cash.

Trooper Palko later obtained a search

warrant to collect a saliva sample from Appellant for DNA testing, and genetic
material from the two firearms recovered in the residence was determined to
match Appellant's DNA.
•Appellant was charged with persons not to possess a firearm, three
counts of PWID, and other drug charges. Appellant filed an omnibus pre-trial
motion, which sought the suppression of the evidence retrieved from the East
Jefferson Street duplex. On September 21, 2017, the trial court denied this
- 2 -

J-A12011-20

motion as untimely.

Appellant's court-appointed counsel then filed an

application to withdraw, which the trial court granted, and Appellant retained
substitute counsel. Appellant's new counsel then filed motions for leave to file
pre-trial motions and to sever the firearms charge from the remaining
charges. The trial court granted both motions. Appellant's counsel filed a
suppression motion, which the trial court denied via memorandum opinion and
order on February 7, 2018.
On October 22, 2018, Appellant was found guilty of the firearms offense
after a one-day jury trial. On December 4, 2018, Appellant pleaded guilty to
one count of PWID and the remaining charges were withdrawn. On December
20, 2018, Appellant was sentenced to an aggregate 54-to-108-month term of
incarceration. Appellant then filed the instant appeal.2
On appeal, Appellant raises three issues: (1) whether the search and
seizure of the separate attic room of the East Jefferson Street residence was

2 Appellant first filed a timely post-sentence motion on December 27, 2019.
When the trial court failed to rule on the post-sentence motion within 120
days as required by Pa.R.Crim.P. 720(B)(3)(a) and the clerk of courts did not
issue an order denying the motion by operation of law as required by
Pa.R.Crim.P. 720(B)(3)(c), Appellant filed a notice of appeal on May 30, 2019.
Because Appellant's untimely appeal followed a breakdown in the court system
as a result of the clerk of court's failure to notify him of the denial of his post­
sentence motion by operation of law, we will consider his appeal as timely
filed. Commonwealth v. Braykovich, 664 A.2d 133, 138 (Pa. Super. 1995).
Appellant filed a concise statement of matters complained of on appeal on
June 13, 2019. The trial court filed its Pa.R.A.P. 1925(a) opinion on July 29,
2019.

- 3 -

J-A12011-20

proper in the absence of a warrant; (2) whether sufficient evidence was
presented that Appellant possessed the firearms found at the residence; and
(3) whether Appellant was denied due process by virtue of the fact that the
trial -court did not order the jail where Appellant was being held to return
certain legal papers to him in advance of trial.3
We first review Appellant's claim that the trial court erred in denying his
suppression motion,

Our standard of review of a trial court's ruling on a

suppression motion is "whether the factual findings are supported by the
record and whether the legal conclusions drawn from those facts are correct."
Commonwealth v. Duke, 208 A.3d 465, 469 (Pa. Super. 2019) (citation
omitted). We are bound by the facts found by the trial court so long as they
are supported by the record, but we review its legal conclusions de novo.
Commonwealth v. Kane, 210 A.3d 324, 329 (Pa. Super. 2019). The trial
court has sole authority as fact-finder to pass on the credibility of witnesses
and the weight to be given to their testimony. Duke, 208 A.3d at 470. "Our
scope of review is limited to the record developed at the suppression hearing,
considering the evidence presented by the Commonwealth as the prevailing

3 Appellant's brief does not contain a statement of the questions involved in
his appeal as required by the Rules of Appellate Procedure.
Pa.R.A.P.
2111(a)(4); Pa.R.A.P. 2116(a). However, because this defect in the brief does
not impede'our ability to discern and address the three issues Appellant seeks
to raise, we decline to find waiver on this basis. Werner v. Werner, 149
A.3d 338, 341 (Pa. Super. 2016). We have summarized the appellate issues
from the summary of the argument section of his brief and the headings within
the argument section of the brief. See Appellant's Brief at 3-4, 10-11.
- 4 -

J-A12011-20

party and any uncontradicted evidence presented by the defendant." Kane,
210 A.3d at 329 (citation and brackets omitted).
On appeal, Appellant challenges the initial search warrant issued for the
search of the East Jefferson Street residence, contending that it only related
to the items taken during the burglary of the boat rental business and did not
state that the officers could search the attic room where he was found.
Appellant thus contends that the warrant did not state with sufficient
particularity the places to be searched and the items to be seized. Appellant
further argues that the firearms seized in the residence were not injalain view
but in fact in closed luggage.

Appellant additionally contends that the

Pennsylvania State Police troopers' entry into the residence violated the knock
and announce rule set forth in Pennsylvania Ruie of Criminal Procedure 207.
Finally, Appellant argues that the troopers impermissibly obtained a buccal
DNA sample from him via a search warrant because "DNA is a sacred bodily
fluid" and may only be collected with the individual's consent.

Appellant's

Brief at 10.
Initially, we observe that, while Appellant filed a broad suppression
motion asserting various grounds for relief, the motion did not argue that the
search warrant for Appellant's buccal DNA sample was constitutionally
(

impermissible because DNA is a sacred bodily fluid. It is well-established that
✓ \

issues not first presented to the trial court are waived on appeal. Pa. R.A.P.
302(a) ("Issues not raised in the lower court are waived and cannot be raised
for the first time on appeal.").

Even issues of constitutional dimension are
- 5 -

7

J-A12011-20

waived if they are not preserved in the trial court. Commonwealth v. Cline,
177 A.3d 922, 927 (Pa. Super. 2017). "The appellate rules direct that an issue
must be raised in the trial court in order to provide that court with the
opportunity to consider the issue, rule upon it correctly, and. obviate the need
for appeal."

Gustine Uniontown Associates, Ltd. v. Anthony Crane

Rental, Inc., 892 A.2d 830, 835 (Pa. Super. 2006). Because Appellant did
i

i

not present his appellate challenge to the DNA warrant to the trial court, that
issue is waived.
Next, we conclude that Appellant waived his challenge based upon the
particularity requirement of the Fourth Amendment of the United Statqs
Constitution and Article I, Section 8 of the Pennsylvania Constitution because
he did not raise these issues in his concise statement of errors complained of
h

1

on appeal. It is axiomatic that issues not included in an appellant's concise
statement are waived for purposes of appeal. See Pa.R.A.P. 1925(b)(4^(vii)
("Issues not included in the Statement and/or not raised in accordance with
the provisions of this paragraph (b)(4) are waived."); Commonwealth v.
Proctor, 156 A.3d 261, 267 (Pa. Super. 2017) ("[I]t is well-settled that issues

i that are not set forth in an appellant's statement of matters complained of on
appeal are deemed waived." (citation, quotation marks, and brackets
omitted)).
Furthermore, we are prevented from conducting a meaningful review of
Appellant's remaining suppression issues as a result of the fact that no
transcript of the suppression hearing appears in the certified record.
- 6 -

"The

av

J-A12011-20

fundamental tool for appellate review is the official record of the events that
occurred in the trial court." Commonwealth v. Preston, 904 A.2d 1, 6 (Pa.
Super. 2006) (en banc). The certified record consists of "original papers and
exhibits filed in the lower court, paper copies of legal papers filed with the..
prothonotary by means of electronic filing, the transcript of proceedings, if
any, and a certified copy of the docket entries prepared by the clerk of the
lower court." Pa.R.A.P. 1921. "[A]n appellate court is limited to considering
only the materials in the certified record when resolving an issue." Preston,
904 A.2d at 6; see also In the Interest of G.E.W.,
Super 133, *7 (filed June 8, 2020).

A.3d

2020 PA

In Pennsylvania, we place the

responsibility of ensuring that the record on appeal is complete "squarely upon
f

the appellant and not upon the appellate courts." Preston, 904 A.2d at 7.
With regard to transcripts, our Rules of Appellate Procedure require an
appellant to order and pay for any transcript necessary for resolution of the

\

issues appellant raises on appeal. Pa.R.A.P. 1911(a). When an appellant fails
to adhere to the appellate rules and order all necessary transcripts, "any
claims that cannot be resolved in the absence of the necessary transcript or
transcripts must be deemed waived for the purpose of appellate review."
Preston, 904 A.2d at 7 (citation omitted); see also G.E.W., 2020 PA Super

133, *7.
In the present matter, a hearing was scheduled on Appellant's
suppression motion for February 5, 2018, and the trial court issued its
memorandum opinion and order denying the suppression motion on February
- 7 -

J-A12011-20

7, 2018.

In its memorandum and order, the trial court solely addressed

Appellant's argument that the affidavit of probable cause accompanying the
initial search warrant did not establish probable cause that items taken from
the burglary of the boat- rental business could be found in the East Jefferson
Street residence. Memorandum Opinion, 2/17/18, at unnumbered pages 1,
3.4
Following the trial court's ruling, Appellant filed a pro se motion to
dismiss his privately retained counsel on February 14, 2018; the trial court
ultimately permitted counsel's withdrawal on March 6, 2018. On February 23,
"oral2018 Appellant filed a pro se handwritten request for a transcript for the
arguments" heard on his suppression hearing on February 5, 2018. Docket
No. 54 The Butler County Clerk of Courts responded to Appellant by letter of
that same date explaining that in accordance with a new local rule, all
transcript requests must be made through the filing of a

Request for

Transcripts" form. Docket No. 55. Neither Appellant nor his later appointed

V'

4 We further observe that the trial court did not cite any testimony or evidence
presented at the hearing in its memorandum opinion denying the suppression
motion. Although it is impossible to determine definitively without the
transcript, it appears that Appellant solely raised a facial challenge to the
affidavit of probable cause accompanying the initial search warrant at the
February 5, 2018 hearing, an issue distinct from any of the arguments he
presents on appeal. In such a case, Appellant's appellate suppression issues
would be waived for the purposes of appeal. Commonwealth v. Leaner, %
202 A 3d 749, 765 n.3 (Pa. Super. 2019) (holding that an issue raised in a
pre- trial motion but abandoned at a subsequent hearing is waived on appeal).
- 8 -

J-A12011-20

trial counsel requested a transcript of the February 5, 2018 proceedings, and
the transcript for that hearing was not entered on the docket.
In sum, our review of the record reveals that Appellant did not order a
transcript of the February 5, 2018 suppression hearing and that this transcript
is not contained in the certified appellate record. While Appellant did submit
a handwritten request for the transcript, the clerk of courts promptly
responded to Appellant that his request was not proper under the local rules
and informed him where to locate the appropriate form to request a transcript.
Furthermore although Appellant submitted the request while he was in the
process of discharging his privately retained attorney, new counsel was
appointed for Appellant, his counsel submitted the proper request form for the
transcripts of later proceedings in this case and these transcripts were noted
on the docket and included in the certified record. Therefore, Appellant has
not

demonstrated that the absence of the suppression hearing transcript is

attributable to a breakdown in the judicial process. Pres&on, 904 A.2d at 8
("An appellant should not be denied appellate review if the failure to transmit
the entire record was caused by an 'extraordinary breakdown in the judicial
process.'" (citation omitted)).
Appellant's remaining suppression arguments that the troopers did not
comply with the knock and announce rule and did not discover the firearms in
plain view each require consideration of the factual record developed at the
suppression hearing as to which the Commonwealth had the burden of
production and persuasion

See Pa.R.Crim.P. 581(H), Comment; see also

- 9 -

J-A12011-20

Commonwealth

v.

Enimpah,

106

A. 3 d

695,

701

(Pa.

2014);

Commonwealth v. Frederick, 124 A.3d 748, 755 (Pa. Super. 2015)
(Commonwealth bears the burden of proving at the suppression hearing that
it complied - with the knock and announce rule , or that the circumstances
The absence of the testimony and

satisfied an exception to the rule).
evidentiary

record

established

at the

suppression

hearing

testimony,

therefore, precludes our meaningful review of these arguments.

G.E.W.,

2020 PA Super 133, *7; Preston, 904 A.2d at 7. Accordingly, in the absence
tv

of the suppression transcript, these issues are waived.
In his second appellate issue, Appellant argues that there was "no proof"
that he owned the firearms found at the East Jefferson Street residence.
Appellant's Brief at 10. Appellant contends that his genetic material only was
present on the firearms as a result of blood splatter from the cuts on his hands
after he attempted to escape through a window. Appellant asserts that, even
if the genetic material was not from his blood and his fingerprints were present
on the firearms, such evidence was insufficient to show ownership because
"[t]ouch alone is not ownership." Id.
While Appellant does not frame this issue as a challenge to the
sufficiency of the evidence for his persons not to possess a firearm conviction

- 10 -

J-A12011-20

we analyze it under that framework.5

We have explained our standard of

review with respect to a sufficiency of the evidence argument as follows:
[w]hen reviewing the sufficiency of the evidence, we must
determine whether the evidence admitted at trial and all
reasonable inferences drawn therefrom, viewed in the light most
favorable to the Commonwealth as verdict winner, were sufficient
to prove every element of the offense beyond a reasonable doubt.
The facts and circumstances established by the Commonwealth
need not preclude every possibility of innocence. It is within the
province of the fact-finder to determine the weight to be accorded
to each witness's testimony and to believe all, part, or none of the
evidence. The Commonwealth may sustain its burden of proving
every element of the crime by means of wholly circumstantial
evidence. As an appellate court, we may not re-weigh the
evidence and substitute our judgment for that of the fact-finder.
4Commonwealth v. Hi/I, 210 A.3d 1104, 1112 (Pa. Super. 2019) (citations,
quotation marks, and brackets omitted).
To sustain a conviction of persons not to possess a firearm under Section
6105(a) of the Crimes Code, the Commonwealth must prove that "the
individual (1) possessed, used, controlled, sold, transferred, or manufactured
a firearm (or obtained a license to do any of the foregoing activities); and (2)

5 We note that Appellant preserved the sufficiency of the evidence claim by
raising the issue in his concise statement of matters complained of on appeal.
Pa.R.A.P. 1925(b) Statement, 6/13/19, 1115. The trial court found this issue
to be waived because the concise statement did not state with specificity the
element or elements upon which the evidence was allegedly insufficient. Trial
Court Opinion, 7/29/19, at 3; see, e.g., Commonwealth v. Ellison, 213
A 3d 312, 320-21 (Pa. Super. 2019). While we agree with the trial court that
Appellant's concise statement is not a model of clarity, a fair reading of the
statement makes clear that the crux of Appellant's issue is that he did not
4. believe that the Commonwealth had shown that he owned or possessed the
L
firearms found in the East Jefferson Street residence. Thus, we decline to find
waiver on this ground.
- 11 -

J-A12011-20

has been convicted of a specific type of offense" enumerated in the statute.
Commonwealth v. Greenlee, 212 A.3d 1038, 1045 (Pa. Super. 2019)
(emphasis omitted). Here, Appellant does not contest that he had previous
disqualifying convictions but- rather he argues that the Commonwealth did not.
prove the first element related to his possessory interest in the firearms.
In cases where a defendant is not found in actual possession of a
prohibited item, the Commonwealth must establish that the defendant had
constructive possession of the item to support a conviction. Commonwealth
v. McClellan, 178 A.3d 874, 878 (Pa. Super. 2018) (concluding that
conviction under Section 6105(a) supported by constructive possession of
firearm); Commonwealth v. Harvard, 64 A.3d 690, 699-700 (Pa. Super.
2013) (same). Constructive possession is defined as "conscious dominion" of
an object, meaning that the defendant has "the power to control the
contraband and the intent to exercise that control."

Commonwealth v.

Parrish, 191 A.3d 31, 36 (Pa. Super. 2018) (citation omitted); see also
McClellan, 178 A.3d at 878.

"As with any other element of a crime,

constructive possession may be proven by circumstantial evidence, and the
requisite knowledge of the item's whereabouts and intent to exercise control
over the item may be inferred from the totality of the circumstances.
McClellan, 178 A.3d at 878 (citation omitted).
In this case, after hearing glass breaking upstairs, Trooper Palko and his
fellow troopers went up to the third floor of the East Jefferson Street residence,
which Trooper Palko described as an "open," attic-like living space.
- 12 -

N.T.,

J-A12011-20

10/22/18, at 32-33, 35.

The troopers located Appellant coming out of a

"cubby hole" area of the third floor with a cut on his hand after apparently
attempting to escape through a window, Id. at 32-33. The troopers also
found two handguns in-the third floor living space.

a Bond Arms Defender

derringer found on a ledge by the top of the stairs and an Intratec Tec-22
pistol discovered a few feet away protruding from a black leather bag behind
a couch. Id. Appellant was the only individual located on the third floor, or
indeed in the entire residence. Id. at 33.
After collecting the firearms, Trooper Palko sent them to a Pennsylvania
State Police crime laboratory. Id. at 37, 40. Trooper Palko testified that he
did not observe any blood on the handguns while packaging them for testing.
Id. at 49. A forensic serologist at the laboratory testified at trial that she took
swabs for "touch DNA" from the two handguns and did not detect blood at any
of the sampled areas. Id. at 56-58. A scientist in the forensic DNA division
of the laboratory testified that DNA from two individuals was detected from
the swab of the grip of the Tec-22 pistol, but only one of the individuals
contributed enough DNA to be suitable for analysis. Id. at 70.

DNA from

three individuals was obtained from the swab of the grip of the Bond Arms
Defender, but there was only sufficient DNA from one of the individuals for
testing.

Id. at 71.

Upon comparison of Appellant's DNA obtained from a

buccal swab, Appellant's DNA was determined to match the DNA profiles of

- 13 -

J-A12011-20

the suitable samples obtained from the grips of the two handguns to an
extremely high degree of probability.6 Id. at 72-76.
We conclude that the evidence at trial was sufficient to show Appellant's
constructive possession of the firearms found at the East Jefferson Street
residence. Appellant was found in the same third-floor living area of the house
as the handguns, and Appellant's DNA was detected on the grips of both guns.
Compare McClellan, 178 A.3d at 879 (sufficient evidence to find constructive
possession of gun found in shared basement common area of home shared
with family when DNA samples from the gun's grip and magazine shpwed that
the gun was substantially more likely to have been touched by the defendant
as opposed to the family members with which he lived).

While Appellant

asserts that his DNA found its way onto the guns from blood splatter after he
broke a window, both Trooper Palko and the serologist denied observing blood
on the guns. Furthermore, Appellant's DNA was the only genetic material of
sufficient quantity to allow for testing, further bolstering the finding that he
was the possessor of the guns. Even to the extent Appellant could not be said
to have exclusive access to the third-floor living area where the firearms were
discovered, the evidence presented was sufficient to show that Appellant had
joint constructive possession of the two handguns. See id. at 878-79 (noting

6 The forensic DNA scientist testified that the probability of randomly selecting
an unrelated individual exhibiting the same DNA profile as Appellant was at
least one in 45 sextillion with respect to the sample from the Bond Arms
Defender and at least one in 190 septillion with respect to the sample firom
the Tec-22 pistol. N.T., 10/22/18, at 74-76.
- 14 -

7

■

J-A12011-20

that the fact that another individual may have control and access to
contraband does not negate the defendant's constructive possession).
Appellant's second appellate issue thus merits no relief.
Finally,- Appellant argues that his conviction must be vacated because
the trial court denied him due process of law when it failed to order the return
of his legal materials that had been seized by Butler County Prison authorities
prior to trial based upon the suspicion that they were laced with fentanyl or
other controlled substances.

Appellant claims that his inability to reference

his cases, handwritten notes, and "exculpatory evidence" prevented him from
mounting an effective defense at trial. Appellant's Brief at 11.
Both the Fourteenth Amendment of the United States Constitution and
Article I, Section 9 of the Pennsylvania Constitution provide a criminal
defendant with due process of law. See Commonwealth v. Turner 80 A.3d
754, 763 (Pa. 2013) (stating that the two constitutional provisions are
coextensive). "While not capable of an exact definition, the basic elements of
procedural due process are adequate notice, the opportunity to be heard, and
the chance to defend oneself before a fair and impartial tribunal having
jurisdiction over the case." Id. at 764. Due process is "flexible and calls for
such

procedural

protections

as

the

particular

situation

demands."

I Commonwealth v. McClelland, 165 A.3d 19, 29 (Pa. Super. 2017) (citation
omitted).
A

review

of the

record

reveals that on

September 21

2018,

approximately one month prior to trial, Appellant submitted to the trial court

- 15 -

J-A12011-20

a pro se motion seeking the return of his legal papers taken by the Butler
County Prison. As Appellant was represented by counsel, the clerk of courts
forwarded Appellant's pro se filing to his trial counsel, and Appellant's counsel
filed a motion for- the return of property on September 25, 2018.
court ordered a hearing for October 31, 2018.

The trial

At Appellant's October 22,

2018 trial, Appellant complained that he could not present an effective defense
without his "law work," however the trial court deferred any ruling on the
motion for return of property until after the October 31st hearing.

N.T.

10/22/18, at 3-5, 10. On November 26, 2018, after the hearing and the trial
court's receipt of a written submission from the Butler County Prison, the trial
court entered an order permitting the return of Appellant's property to his
attorney or another designee provided that he execute an authorization to
that effect.
Upon review, we do not discern a violation of Appellant's due process
rights.

The trial court considered Appellant's motion for the return of his

property, provided Appellant with an opportunity to be heard regarding the
actions of the Butler County Prison, and rendered a decision on the motion
that was largely in Appellant's favor,

While Appellant maintains that he

needed his legal work at trial in order to effectively defend himself, Appellant
did not seek a continuance of his trial based upon the unavailability of his legal
papers.

Furthermore, Appellant was represented by counsel at trial and his

counsel did not represent to the trial court that his lack of access to Appellant's

- 16 -

J-A12011-20

legal papers would hinder his defense of Appellant.7 While Appellant asserts
that he had exculpatory evidence among his seized property, at no point has
he described to the trial court or to this Court the nature of this allegedly
exculpatory evidence. -Therefore, Appellant'S-due- process^claim warrants no
relief.8
Judgment of sentence affirmed.

7 We observe that Appellant did fire his trial counsel during trial after the
Commonwealth rested, and Appellant was then permitted to personally
examine Trooper Palko regarding the search of the East Jefferson Street
residence and the seizure of Appellant and the firearms. N.T., 10/22/18, at
101-14. Appellant's trial counsel then resumed representation of Appellant
and delivered the closing statement. Appellant has not explained in this
appeal how he would have more effectively mounted his own defense had he
been in possession of his legal papers during his trial.
8 Finally, we note that, to the extent Appellant directly challenges the Butler
County Prison's action in taking away his legal papers, Appellant's remedy is
not through an appeal of his judgment of sentence but rather through a civil
action against the appropriate correctional authorities. Furthermore, while
Appellant appears to call into question the adequacy of his trial counsel s
performance with respect to the motion seeking the return of his property,
ineffective assistance of counsel claims are not cognizable on direct appeal
except pursuant to limited exceptions not applicable here. Commonwealth
v. Hopkins, ___ A.3d ___, 2020 PA Super 25, *11-12 (filed February 7
2020).
- 17 -

J-A12011-20
i

Judgment Entered.

Joseph D. Seletyn, Esq2
Prothonotary

Date: 7/23/2020

- 18 -

I

Received Z/25/2020 3:00:48 PM Superior Court Western District

IN THE SUPERIOR COURT OF PENNSYLVANIA
WESTERN DISTRICT
No. 815 WDA 2019

COMMONWEALTH OF PENNSYLVANIA,
Appellee,
..... v. ..
)

HASAN SHAREEF,
Appellant
BRIEF FOR APPELLEE

Appeal from the December 20, 2020 Order ofSentence entered at CP-10-CR1714-2016 by the Honorable Timothy F. McCune of the Court of Common Pleas
of Butler County.

Gregory J. Siraatic
Deputy Attorney General
Appeals and Legal Services Section
Attorney I.D. 201019
gsim.atlc@attorneygeneral.gov

OFFICE OF ATTORNEY GENERAL
Criminal Law Division
Appeals & Legal Services Section
1251 Waterfront Place, Mezzanine Level
Pittsburgh, PA 15222
(412) 565-5339

RpjL'

ic

i taC 41

Ct?’’ U/yjp/tN ij.A.-iliL.L''

fr

TABLE OF CONTENTS
___ ii
TABLE OF AUTHORITIES......

*#■»••••*•■••*•••*••

_1

COUNTERSTATEMENT OF THE QUESTIONS INVOLVED

1 .

COUNTERSTATEMENT OF THE CASE

5

»•*»<

SUMMARY OF ARGUMENT...

6

ARGUMENT......................
I.

^xs^s.Ds?s.’r,ss?'
AND HIS CONTRABAND WERE FOUND

-..................... 6

IL
WEIGHT OF THE EVIDENCE-......... -............... *...................
m

APPELLANT W AS NOT DENIED DUE PROCESS BY THE
BUTLER COUNTY JAIL’S HANDLING OF HIS BOX OF
CONTAMINATED PAPERWORK.——•..............................."

16

CERTIFICATE OF SERVICE——

i

r,

HASAN' ,£XAXEEF

...13

_____ .15

CONCLUSION------

RfeC: 1*49*83

10

)

ft

Statutes

.3

18 Pa.C.SA* §6105.......

.3

35 P S. §780-113(a)(30)
»

,4

71 P.S. § 732-205.........

Rules

5. 14

Pa.R-A-P. 1925(a)

5,7

Fa-R.A.P.2119....

••
i

ill

Rft-1: 1*49*1T3 pq 9

i f.?v

"-’A..3EEF

»

r'OI TNTERST atf.ment of the questions involved
I

I.
A SEARCH WARRANT?
[Answered in the negative belov?.]

evidence?

[Answered in the negative below.]
idl

WAS THE APPELLANT DENIED DUE PROCESS BY THE BUTLER
COUNTY JAIL’S HANDLING OF HIS PURPORTED LEGA
PAPERWORK?
[Answered in the negative below.]

— t

1

P3 It .•?r. O ?.Ti‘ HPS-PS rXAREEF

TABLE OF AUTHORITIES
»

Page(s)

Constitutional provisions
.....

Pa. Const, art. V, § 9......
Cases

fcj1'

?M»€ .'70

Commonwealth v. Antidormi,i 84 A-3d 736 (Pa. Super. 2014).
r^r^lth v. Baker, 201 ASA 791 (Pa. Super. 2018)~
r'nmmrvnwealth v. Bostick, 958 A.2d 543 (Pa Super. 2008).
Pnmmonwealth v. Brown, 648 A.2d 1177 (Pa. 1994)...........
Commonwealth v. Clay, 64 A.3d. 1049 (Pa. 2013).... .............. :•
Commonwealth v.-Gillespie, 821 A.2d 1221 (Pa. 2003),..........
Commonwealth v. Gonzalez, 109 A.3d 711 (Pa. Super. 2015).
Commonwealth v ■ Jones, 988 A-2d 649 (Pa. 2010)...................
C nmm onweal tli v. Puksar, 951 A.2d 267 (Pa. 2008)............."•
commonwealth v. Reed, 216 A.3d 1114 (Pa. Super. 2019)...,.
0

Commonwealth v- Steek, 961 A.2d 786<Pa. 2008).................
Commonwealth v. Taylor, 77i:A:2<H26iPa. 2001)............Commonwealth v. Thomas, 717 A.2d468 (Pa. 1998)..... ........

^ Commonwealth v. Walter, 966 A.2d 560 (Pa. 2009)....................
CoumTtmweaUili YT^Widmer. ?44~A.2d 745 (Pa. 2000)................Windslowe, 158 A.3d 698 (Pa. Super. 2017)
Commonwealth v._
Commonwealth v. Wright. 99 A.3d 565 (Pa. Super. 2014)........
Commonwealth v. Wright, 961 A.2d 119 (Pa. 2008)..................
Commonwealth V. Zhahir, 751 A.2d 1153 (Pa, 2000)..................

Plrhmm v. McKeon, 824 A.2d 305 (Pa. Super. 2003)...............
Kepnra v. United States, 468 U.S. 796 (1984))......... .................’•
u

Rftl: 1MS4B-S t*> 1

« 'av. MASW'' S:^EEF

JO"

„9
12
...12,13
.9
11
8

7
10-11

7
8
7
.7, 14

^44r4-3
12
.9

,7
...8

1
.9

ft

COTJiNTEFSTATEMENT OF THE CASE
r Brian Palko of the Pennsylvania State Police was
On May 27,2016, Troope
investigating a burglary of a boat rental business in the course of his professional
duties. N.T. 10/22/2018 p. 30,44.
1004 East. ---Jefferson

The investigation led to apartment number 2 at

Street in the city of Butler . M- Trooper Palko obtained a

in order to seek evidence related to the burglary.
search warrant for that residence m
Id. p. 31. He had also been
was

informed that there may be an individual there who

selling drugs. Id- P- 45. While knocking on the door and announcing their

presence, the unlatched door swung open
residence of any occupants. M- P
on the floor above. Id. p

and the troopers entered to clear the

31-32. Trooper Palko then heard glass breaking

32. The individual' responsible for the breaking glass

declined to come down, so

Trooper Palko had to go up the stairs. Id- Upon doing

so, he saw a firearm in plain view on a ledge- at the top of the steps and discovered
Appellant Shareef emerging from

“cubby hole” with bloody hands. Id. p. 32-33.

Shareef was the only person found in either the attic or the residence as a whole.
-fdrp. 33, 35. In Lbc uourse~of~cfa
observed part of another gun

sticking out of a black leather bag behind a couch and

a glassine heroin bag. Id.

2

Rft-1: lA49r>P7 po ^

.,r

C-Tf HAi-AX £>.AREEF

I

After securing Shareef, Trooper Paiko applied for another search warrant m
I

order to

be properly authorized to search and seize the residence for evidence

associated with drug activity. Id. p. 39.
Upon c

wHi. Shareef s criminal history, Trooper Paiko found that he had

Trooper Paiko subsequently submitted
. an extensive criminal record. Id. p. 41-42.
the two guns to the
Id. p. 37.

State Police Greensburg Crime Laboratory for DNA testing.

This testing preliminarily linked DNA found on certain portions of the

weapons to Shareef, so a

search warrant for a sample of Shareef s DNA for further

comparison was obtained. Id. p. 42-43 When die weapons were swabbed for
DNA, no blood was observed in any of the sampling locations. IA P- 5<5°8Through scientific testing, the DNA found on the weapons was matched to the
appellant. Id. p. 73-76

•

As a result of this incident, Shareef was charged with possession with intent
to deliver

and possession of a firearm by a prohibited person.2 After several

rounds of pretrial litigation and numerous firings of defense counsel by the
gmlLy to the drug charge and^

leuai
charge.

For the purposes of dlls prosecution, the Commonwealth relied on three

felony drag convictions from Franklin County and certified copies thereof to

1 35 P.&- §780-113(a)(30)
2 l&Pa.C.S.A. §6105(a)(1)
3

Rft-l: 1«MB1 po 11 vr. IT r.TV Hhi-fOi “I-ihKEEF

I

establish that Shareef was, in fact, prohibited from possessing a firearm, id- P- 81 »

82. Shareef was convicted by a jury on October 22,2018 after a one day trial.
Post sen

tence motions followed on December 27,2018 and- a hearing was

scheduled for January 9, 2019.

The post-sentence motions were denied by

operation of law on Inly 30,2019, by which point this appealhad^ already been
filed. The

Commonwealth was represented by the Under County District

Attorney's Office through the filing of the Appellant’s brief in the instant matter.
Upon die filing of a federal lawsuit against the District Attorney’s Office by
Shareef, the case was re

ferred to the Office of Attorney General pursuant to the

conflict of interest provision of the

Commonwealth Attorneys Act (“Act”), 71 P.S.

§ 732-205.

4

Rei: 1S«W M 17 o'. <7

H*5**

I

SUMMARY OF THE ARGUMENT
»

Hant Shareef has failed to put forth, much less properly develop, cogent
Appe!
arguments and/or legal analysis in support of any of his claims. The argument
section of liis brief instead consists of a scattershot laundry list of grievances and
un

substantiated allegations against every entity involved m his arrest, prosecution,

and conviction, none of which are

legitimized by citation to the extant record. His

lack of proper compliance with Pa.Rj\..P.'2119 renders nieaningfttl appellate
review effectively impossible.
To the extent that Shareef s appellate claims can be deciphered, it is evident
that the State Police followed proper procedure in both preliminarily detaining him
and in observing. incriminating items in plain view in the attic. Where weapons
were found in Shareef s vicinity with, his DNA on

them, his conviction was neither

supported by insufficient evidence nor against the weight ofthe evidence. With
respect to Shareefs claim that he was impermissibly deprived of his own legal
research when these materials were seized by the Butler County Jail, as noted by
the tower court in iETait.A.P. 1923(a) OpUiiou/ftisidsne^^^
the jail’s

rebuffed offer to return these materials to defense counsel prior to trial.

i

’ 5

ro ■*«? '-r

'<

•

I

ARGUMENT
»

I.

THE STATE POLICE ACTED PROPERLY IN THEIR ENTRY
BVTO AND SEARCH OF THE ATTIC WHERE APPELLANT
AND HIS CONTRABAND WERE FOUND-

ft

As best as can be determined from the argument section of liis brief, Shareef
first con tends that he
police when

was entitled to suppression of the evidence gleaned by the

they initially entered Me attic where he- was found and pursuant to the

second warrant subsequently and derivatively obtained for drugs and guns in the
attic. He makes

a number of conclusory statements about the purported facts of the

case, but does not even bother to attemp
record

t to substantiate these via.citation to the

. Where he does cite to the record, be does so, in large part, in a potentially

misleading way.

The Commonwealth would specifically call the Court’s attention

to Pages 9 and 10 of Appellant’s brief, wherein he recites a List of twelve
hypothetical statements that Appellant attempted, unsuccessfully , to elicit from
Trooper Palko during that limited portion of the trial when Shareef was acting pro
se- Although Shareef does preface this recitation with the disclaimer that "In his
artful questions Appellanrtri-esTD-iettiie Lmopertaradrmt:
would suggest that listing what Shareef apparently hoped the Trooper would say m
y that it could at least appear at first glance that the Trooper had actually
such a wa
•said these tilings o

r that they were, in fact, true comes dangerously close to making

a deliberate misrepresentation to the Court. As every jury is
is instructed, questions
6

f?r-. ' . - H Jj-H 1 po 2*

„r' jl-k r,-.- l-hnhK <4* * A*« \-

are not evidence, and to present them, attest ambiguously,, as such is
disingenuous, particularly when what the Appellant ’s subjective, and frankly
delusional, hopes of the Trooper
I

might admit were completely irrelevant to the

record that actually exists.
Furthermore, although Shareef cites various cases for general legal
principles relating to sear

ch and seizure, he makes no attempt to apply them to, or

While a person convicted of a crime is
analyze them in, the context of his case.
guarantee

d *e right to direct appeal under Article V, Section 9. ofthe

Pennsylvania Constitution

, where an appellate brief fails to provide any discussion

of a claim with citation to relevant authority or

fails to develop the issue in any

other meaningful fashion capable.of review, that claim

is waived. Commonwealth

v. Walter, 966 A.2d 560, 566 (Pa. 2009); CommonweaSthv

, Steele, 961 A.2d 786,

. Pitksar, 951 A.2d 267, 293-94 (Pa. 2008).
799 n. 12 (Pa. 2008); rommonwealtliy
an argument must be “followed
See also Pa.R.A.P. 2119(a) (each point treated in
deemed pertinent”). It is not
by .such discussion and citation of authorities as are
fhe-ofehgatiQn of pn-appeUateXouri-ta

fflmiillatp Appellant’s arguments foiiMk-

£2gun222a!*v^ri^961 A .2d 119, 135 (Pa. 2008); Commonweafe
Tliomas, 717 A.2d 468, 482-83 (Pa. 1998)

. Failure to cite relevant legal authority

. McKeon. 824 A.2d 305, 319
constitutes waiver ofthe claim on appeal . F.ichman v
(Pa. Super. 2003). The Commonwealth therefore submits that tins claim’s
7

,,r it r,.. i-AnAb' ril-AO ■ •

N

C

I

inadequate development and citation to the record should cause it to be deemed to
»
Sl

have been waived.

a<

.C2
>

Even, if this issue had been put forth properly, it would still entitle Shareef to
no relief.

As discussed above, die trial record establishes that, upon making entry

to die premises via an unlocked door pursuant to a validly issued search warrant,
the State Police heard breaking glass upstairs. At that- point they were wholly
justified in making a protective sweep of the premises tee fommonwealth v.
Tavlor, 771 A.2d 1261, 1267 (Pa. 200IX"A protective sweep is ‘a quick and
limited search of premises, incident to an arrest and conducted to protect the safety
of police officers or others .

). Trooper Palko^s description of his entry into the

attic and his actions therein was entirely consistent with a valid protective sweep.
While performing this justified sweep, Trooper Palko observed firearms and drugrelated items in plain view.

Under the plain view doctrine, warrantless seizure of

property is permissible where a law enforcement officet is lawfully in a position to
view an item and the item's incriminating nature is immediately apparent.
Cumu'tunwealth v. Zhahn, 751 A.2d 1153, 1.160
doctrine applies to analyses under both the United States and Pennsylvania
Constitutions. Commonwealth v. Jones, 988 A.2d 649, 656 (Pa. 2010). A police
officer has

probable cause to believe that an object is incriminating where the facts

available to the officer would warrant a man of reasonable caution in the belief that
8

r?#."■

-

pa

-i, ,-.r a, r,-.- i.’ArfAN'

• •

I

certain items may be contraband or stolen property or useful as evidence of a
>

Crime. Commonwealth v. Wright, 99 AM 565, 569 (Pa. Super. 20)4). Having
been told that drug sales we going on M this residence and having personally

I

observed drug paraphernalia, Trooper Pallco could quite reasonably believe that
firearms., although perfectly legal in other contexts, were illegal in this particular
one

and that further investigation was therefore necessary. His subsequent

securing of the dwelling, on the basis of this probable cause, in order to prevent the
destruction or removal of evidence while a search warrant was being sought was
not itself an unreasonable seizure of either the dwelling or its contents.
commonwealth v. Bostick. 958 A.2d 543,559 (Pa. Super. 2008): Commonwealth
v Gillespie. 821 A.2d 1221, 1227 n. 2 (Pa 2003) (quoting Segura v. United States,
468 U.S. 796, 810 (1984)).

9

Rfcl: 1949**7 p-7 27 .fl 47 f..?c HA5AX i-XMiEEF

I

II.
i

APPELLANT’S CONVICTION WAS SUPPORTED BY
SUFFICIENT EVIDENCE AND WAS NOT AGAINST THE
WEIGHT OF THE EVIDENCE.
Sbareef next .argues that “There is no proof Appellant owned the guns found

in the same location.” He does not bother to specify whether.he is framing this as
.....

: weight or sufficiency of tlie-evidence c-laim • This entire- section oThis- argument

sr

is three sentences long and cites no authority aside from the section number of the
statute he was convicted of violating. He undertakes no meaningful analysis of :
either the evidence of record or the applicable authority. When an appellant cites
■ no authority supporting an argument, this. Court is inclined to believe there is none.
See Pa. R.A.P. 2119(a) and (b) (requiring an appellant to discuss and cite pertinent
^1T]^pT;^y rnm'mmrwealth v. Antidormi, S4 A.3d 736, 754 (Pa. Super. 2014)
(finding issue waived because the appellant “cited no legal authoritiesnor—
developed any1 meaningful .analysis^ Because Appellant has failed to develop his
argument or cite pertinent authority, this claim should be deemed waived.
If Shareef intends this argument, such as it is, to make out a sufficiency of
the evidence claim, he has substantively failed to do so. The standard applied m
reviewing the sufficiency of the evidence is whether viewing all the evidence
admitted at trial in the light most favorable to the verdict winner, there is sufficient
evidence to enable the. fact-finder to find eveiy element of the crime beyond a
reasonable doubt. Commonwealth v. Reed, 216 A.3d 1114,1119 (Pa. Super.
10

,-.r ii r,s* PASAN rfi:A'i •

ft

2019). In applying the above test, a reviewing Court may not weigh the evidence
»

and substitute its judgment for the fact-finder. Id. The Commonwealth may
sustain its burden of proving every element of the crime beyond a reasonable doubt
by means of wholly circumstantial evidence. Id. Finally, the jury, while assessing
die credibility of witnesses and the weight of tire evidence produced , is free to
believe all, part or none of the evidence. See id. In light of the trial record
described above, the Commonwealth cl early put forth sufficient evidence to
support Shareef s conviction where he was found in close proximity to two
. firearms upon which his DNA was found and he indisputably had prior felony drug
convictions.
' Even if S hareef had put forth some semblance of a cognizable argument m.
support of a weight of the evidence claim, he would still be entitled to no relief.
Although Shareef does not bother to note where he preserved this issue for review,
he did advance a weight of the evidence claim in paragraph 15 of his post sentence
motion, in compliance with Pa.R.CrimT. 607. Nevertheless, the weight of the
evidence is a-mtatterexclusivcly forthe finders
part, or none of the evidence and to determine the credibility of tire witnesses.
rLmnnwealthv. Baker, 201 A.3d 791,799 (Pa. Super,. 2018) (quoting
rrvmmnnwealth v. Gonzalez. 109 A.3d 711, 723 (Pa. Super. 2015)). To
successfully challenge the weight of the evidence,
11

'•V ";

defendant must prove the

I

evidence is .so tenuous, vague and uncertain that the verdict shocks the conscience
»

o.f the court. Commonwealth w Winds!owe, 158 A.3d 698, 712 (Pa. Super. 2Q17).
As our Supreme. Court explained in Commonwealth v. Clay, 64 A.3d 1049
(Pa. 2013), a motion for a ne-w trial based on a claim that the verdict is against the
weight of the evidence is addresse.d to the discretion of the trial court Id, at 105455 (citing Commonwealth v. Widmer, 744 A.2d 745, 7o 1 -52 (Pa. 2000),
Commonwealth v.

Brown, 648 A .2d 1177, 1 189 (Pa. 1994)). Tf]he role of the

trial judge is to.determine that ‘notwithstanding all the facts, certain facts are so
clearly of greater weight that to ignore them or to give them equal weight with all
the facts is to deny justice.

Clay at 1055 (quoting Widmer, 744 A.2d at 752).

The. Court in Clay further instructed:
An appellate court's standard of review when presented with a^weight of die
evidence claim is distinct from the standard of review applied by the trial
court:
of the
Appellate review of a weight claim is a review
_
exercise of discretion, not of the underlying question of
whether the verdict is against the weight of the evidence.
Brown. 648 A.2d at 1189. Because the trial judge has had
the opportunity to hear and see the evidence presented,
an appellate court will give the gravest consideration to
the findings and reasons advanced by the trial judge
when reviewing a trial court's determination that the
verdi ct is against the weight of the evidence.
Commonwealth v. Farquharson, 354 A.2d 545 (Pa.
1976). One of the least assailable reasons for granting or
denying a new trial is the lower court’s conviction that
the verdict was or was not against the weight of the
12

-f.4 4btn po

1

,-r

m

r,i* riArtAK

•

evidence, and that a new trial should be grunted in the
interest of justice.
Id. at 1055 (quoting Widmer.; 744 A.2d at 753).
As discussed above, the evidence produced at trial was more than adequate
to preclude a shock to the conscience of the court and the lower court therefore did
not abuse its discretion in rejecting this claim.

Ill

APPELLANT WAS NOT DENIED DUE PROCESS BY THE
BUTLER COUNTY JAIL’S HANDLING OF HIS BOX OF
CONTAMINATED PAPERWORK

Shareefs third and final claim, to the extent that it can be deciphered, is that
the lower court erred in declining to order the Butler County Jail to return his
“multipage, handwritten, jumble of cases from a pot pourri of jurisdictions^'5 that
he mischaracterizes as somehow constituting evidence. He claims that these items
of illicit substance
were seized because they were allegedly tainted with some type
QnA thft •Rntlpr r.oiinty Jail refused tojreturmthejriiJo him. He cites,. nolhingia-fcg—
record to substantiate that this was, in fact, the case. He cites only to two
exchanges where the trial court told him.that the issue of what had happened to his
paperwork at the jail had already been dealt with and was not a proper area of

3 Appellant’s Brief p. 11.

13

Rr-I: IWSiiS-! pn V. -i'. i.‘! '.~t KWAX JXAKEEF

inquiry at trial with unrelated witnesses

As the trial court noted in its Pa.R. A.P.

1925(a) Opinion, the Butler County solicitor informed trial counsel prior to trial
that the property at issue could be turned over to counsel If Sliareef signed a
release. Apparently Counsel did not wish to take the jail up on this offer. The
lower court tiierefore properly deemed the issue moot, Shareef cites no authority
to support the proposition that this finding of mootness was erroneous or that he is
to any other type of relief. Where an appellate brief fails to provide any
discussion of a claim with citation to relevant authority or fails to develop the issue
1
in any other meaningful fashion capable of review, that claim ts waived.
Commonwealth v. Walter, 966 A.2d at 566.

14

Rfe-1:

P" 17 nr. 4*1 r--7V HAT-AX ^XAKEEF

CONCLUSION
WHEREFORE, for the foregoing reasons, the Commonwealth respectfully
requests that this Honorable Court affirm Hasan Shareef s conviction and sentence.

• Respectfully submitted,

i_:.. .

Josh Shapiro
Attorney General
Jennifer Seiber
Director, Criminal Law Division
James P, Barker
Chi ef Deputy Attorney General
Appeals and Legal Sendees Section

By :

February 25,2020

15

r.V.'t

po t1? '•■r <1 r>-' • ■'ArtAK rfl;A'«' • •

/s/ Gregory J. Simatic______
Deputy Attorney Genera!
Attorney No. 201019
gsimatic@attomeygeneral.gov

i

CERTIFICATE OF SERVICE
1 hereby certify that I am this day serving two copies of the foregoing BRIEF FOR
APPELLEE upon the person and in the manner indicated below:
Service by.first class mail to:
Armand R. Cingolani, III, Esq.
300 North MckeanjStreet
Butler, PA 16001
(Counselfor Appellant)

ft
/s/ Gregory J. Simatic
(Counsel for the Commonwealth)
1

L
Date: February 25, 2020.

!■'->

I
ft

ft

ft

16
ft
: ~

pq *r i-r i-j r,-.- i-ASA^ .m-A'i •

•'

• -i'iV.-iK :vV«V:j '-j i:v j-» *

oj hihi^s.

3Jn ®I)e ^superior Court of 3Penngj>lbama
WESTERN DISTRICT
SUPERIOR COURT DOCKET NO.: 815. WDA 2019
TRIAL COURT DOCKET No: CP-10-CR-0001714-2016

f

COMMONWEALTH OF PENNSYLVANIA

/

Appellee

/
<
:

VS
HASAN SHAREEF

Appellant
l

APPELLANT’S BRIEF
AND REPRODUCED RECORD

i

l
r

Appeal from the Order of Court dated December 20,2018

V

{

in the Court of Common Pleas of Butler County, Pennsylvania
(

i

Armand R. Cingolani, EL, Esquire
Supreme Court LD. No. 72767 .
CINGOLANI & CINGOLANI
AttorneyJor Appellant
Aimand-R.-Cingolani, HI, Esquire
Supreme Court fcb. No. 72767
300 North-McKean Street
Butler, Pa. 16001
724-283-065

(

(

■ ■ -,'IVHfl. NVSVH -X Kb

K. M Bi.Ri.ii:'.

;.'.WI

SUMMARY OF THE ARGUMENT
/

The Appellant was searched and seized in his own separate location, without a warrant
The Appellant was convicted in error when the Court and Jury concluded that he
possessed weapons Appellant claims he did not own, in his space, merely because his genetics
were on the surface.

{

!

The Appellant lost his trial because the Court and his counsel failed to ensure the jail

/

t

ft

either returned his cases/ evidence or required reconstruction of his cases/ evidence.
!
I

\
{

\

/

t

(

f

(
xt

i

!'
\

s

;uvas .wsva

Ka y- f.

Hta-?-,:'.

ARGUMENT

From the moment Hasan Shareef heard the police knocking on the door of the apartment
house nothing has happened as he thought it should. As far as he was concerned he never should
have been arrested, charged, tried and convicted. He still can’t understand how he ended up in
f

/

the wrong place and at the wrong time. When the police came to the door the Appellant was
i
i

inexplicably in the attic. He never explained why he was there. When the police started

(

knocking on the door, even though he claims he was doing nothing wrong, he tried to break open

<

the tiny attic window to get out of the house and escape by racing off the roof. He maintained
the story the police did not knock and announce, but rushed in and rushed up the steps and
(3

' l

detained him before he could escape. Escape is neither evidence nor proof of guilt or

\

criminality, Commonwealth v. Phillips, Pa.Superior Court, 1427 WDA 2014. When he was
l5

captured, he was covered in blood, he advises, as a result from glass cuts. Some blood got on the
guns and other objects. The spray of blood did not cause him to be the. owner of the surprising
array of gunnery and contraband which did not belong to him and for which he had no

!

knowledge or explanation about how these inculpatory objects appeared coincidentally in the
-saffledoeahmi-as-he-was-embairassed-to-beibuiid,----------- —------------- ------------- ■------------ISSUE ONE: Whether a warrant was required to search and seize this particular person
and the baggage in his separate attic room.
The Appellant claimed the police just broke in. He claimed he did not hear them knock
and announce. The police must knock and announce. Wilson v. Arkansas, 514 U.S. 927 (1995),

li

1

(iV.-lr .WV.-I “-'i K'j'.i'-' > - ’ej‘ iitHlpi. "i.'cr .

hut See. fflirfsnn v. Michigan, 547 U.S. 586 (2006). It was permissible for the police to wait a
few seconds after knocking before entering to execute the search warrant.
Correlation in time and place of Appellant with contraband is not enough circumstance to
establish proof of guilt beyond a reasonable doubt that he was a felon not to be in possession of a
gun.
Further, Appellant argues that he was not aware of guns and drugs and money in the
same location as he was. He did not see it. The police fabricated these facts and lied. While
!

may have been guns and drugs and money in the attic with him, these things were not in
plain sight but hidden in closed baggage. Sometimes it’s his baggage;, sometimes the baggage

)

must belong to an unknown stranger. It depends. The police just fabricated the visuals that they

I
\

saw these things sticking out of hags. Then, because his blood somehow got splattered on these
objects, the police falsely concluded they must be his possessions, especially the guns and drugs.
The Appellant avers the Court erred in failing to properly instruct the jury on what constitutes
£

constructive possession. The Court should have instructed the jury that the police had to prove
he actually owned the money, drugs and guns.
Worse, the police detained him and searched his separate attic room without a

©

warrant and without his consent May be they had a warrant to search the rest of the house, but
they did not have a warrant to search and enter this attic room. In the Ybarra v. Illinois, 444 U.S.
85 (1979) it was not permissible to search a person on the premises of an authorized search but in
MirMpmv Siimma*. 452 U.S. 692 (1981) a limited intrusion on a detained person on site was
permissible. See also. TI.S. v. Banks. 540 U.S. 31 (2003) which defines the proper exigency time
ft

to eater to avoid a drug dealer disposing of his contraband.

U

i

•

/
/

:: : !WHS

MVStfa -.n;. K‘j

b.

Search and seizure of a person at in a residence is perse unreasonable. Coolidge
v. New Hampshire. 403 U.S. 443(1971).
The Appellant challenges the sufficiency of the warrant as to him in the attic because
when the PSP applied for the warrant it was to search for fruits of the burglary committed by the
- iftwo boys. Therefore the warrant failed to comply the particularity requirement of the Fourth
Amendment so the search of his attic location must be unconstitutional. Massachusetts v.
Sheppard. 468 U.S. 981,988 n.5 (1984).
This is a story about how things that you don’t even know are happening off stage can
leap from the background and grab yon up without you even realizing until it is too late. The
story began when the Appellant, Hasan Shareef, a man with felony convictions, was granted
permission to stay at a three story house at the edge of town by Sarah Snodgrass, soon to be
deceased. Sarah has also granted two other men, both coincidentally named Christopher with
surnames of Anthony and Snyder, permission to stay at the same apartment house she was
renting from a landlord who was probably completely unaware of her generosity. The two
Christophers imagine they are both smarter than they are and better burglars that later events
would actually indicate. Anyway, these two started rolling the snowball downhill when they .
hnTg1gri7pri Pregofnt Ray Marine to steal boat motors and then tried to sell the fruits of their___
crime to West Penn Marine sales. The sales desk agent at West Penn was suspicious and called
the police.
After interrogation, the two Christophers revealed they were staying at Sarah Snodgrass7
rental apartment at 1004 E. Jefferson Street, Butler PA The PSP obtain a warrant to search the
house to find mfoaing parts at the place. Snyder advised a character named “Red” used the attic &
- '

(a

--MVHS NVSV'H ••T- Kb

■ b.

and sells drugs from there, according to the probable cause statement in incident report
involving the two Christophers, Pa. 160 240358 on 5/27/2016. Two warrants were obtained to
search 1004 E. Jefferson Street, Apt. 2 and a 2009 Chevrolet Silverado driven by the two
Christophers but owned by Sarah Snodgrass. These warrants were approved by the on call
Magistrate William S. O’Donnell. The Appellant will later claim he was denied due process by
not being brought before Magistrate William S. O’Donnell and by claiming the warrant is a fraud
With a forged signature. The Magistrate William S. O’Donnell swears he signed the warrant
PSP advised Butler City Police will assist as this is a "known drug house with a reputation
for being a place where drug addicts regularly overdose.
When they tried to enter a locked house, Appellant Hasan Shareef tried to escape out a
/

tiny window in the attic. His attempt failed but he was injured and was bleeding. The authorities
observed the Appellant is in the location and possession of an entire dealer’s panoply of guns,
‘ drugs and money. The PSP obtain a warrant Pa -16- 248429 to secure legal search rights in this
interesting presentation of contraband. The money found under Pa. warrant 16 248429 on Hasan
Shareef was buy money from a drug deal in Clarion.

'

■

In incident Pa 17-203053 in April 18,2016 PSP related that the guns found with Hasan
Shareef were taken from a residence at 339 Dick Rd. Franklin Twp. Butler County Pa. being the
Intratec-22 and the Bond Arms Defender. These guns had been stolen from the family by their
friend Christopher Anthony. The police believe Anthony was a runner for Hasan Shareef. In yet
• another incident Pa. - 18- 200009 Amanda Brommer admitted she bought the Texas Defender
along with 4 other guns for Hasan Shareef.
The Defendant interrupted the District Attorney’s opening to fire his own counsel. (T.24)

•

: - - BVHfT

3V5VH

:«r: /•“. M

PSP Trooper Palko explained he went to 1004 E. Jefferson with a warrant, in order to.
investigate

items taking in the burglary would be found at the residence as the burglars reported

they stayed there. (T.30-31-) In clearing the house he heard glass breaking above him, When
he ascended the flight of stairs in plain view he saw a gun and the Appellant. (T.32)
Once the Appellant was in custody they saw a-gun sticking out of a black bag, and a
glassine bag of heroin in plain view. (J33) They secured a warrant and they found more drugs,
guns and $2,570 in currency wrapped in rubber band. They found another gun behind a couch,
(T.36, T.39)
On cross examination, PSP Palko revealed he was investigating a burglary of boat motors'
and he was after two boys with the first name of Christopher. (T.44) It was by chance that the
Appellant was caught up in their investigation when they searched the residence. (T.45-46)
After indicating the presence of others on the property Counsel elucidated the fact that
neither the gun is titled and therefore not title owned by the Appellant (T.49)
The officer observed that the Appellant was bloody and injured in trying to escape.from a
small black window. (T.49)
The
On direct examination the blood expert Biondi, admitted there was no blood on the Band
Arms Defender or the other gun nor were there finger prints. (T-51-59)
The DNA expert Kukosky testified DNA from three individuals showed up on the
weapon. (T.71) one sample from Appellant showed up on the TEC pistol (p.74)

::->m

- - - MV'rir" •■IVSV'H

. The
owners

Kb-:.'- «. M

expert Kukosky admitted on cross examination that his examination does not prove

hip or how long someone touched a gun nor does he know how DMA got on the gun (T.

77-78) App

ellant advises DNA or fingerprints alone do not prove ownership or possession. A

being may touch another’s property to see what it is or to satisfy curiosity.
The ADA introduced the Appellants prior convictions for possession with intent to
deliver into the record (T.81- 82) To prove a felon may not possess or own weapons the
prosecution must prove the Appellant had a certified record of prior felony convictions.
The Appellant fired his counsel. (T. 98-101)
The

Appellant holds that his room was searched without his consent and PSP Palko

averred he .could search the room because he had a warrant (T.105)
The Appellant disagrees with the witness version of his events, so he posed his questions
tradict and discredit the trooper’s testimony. In his artful questions Appellanttries to get
to con
the trooper to admit:
He had no consent to search the attic. (T. 105)
That the search was unrelated to guns and drugs. (T.l 05)
That neither wairant was adequate to search and seize either guns, money or drags.
(T.I05)
That there was no warrant for DNA. (T.l 06)
That trooper planted DNA on guns. (T.106)
That the cell phone was not Appellant’s. (T.106)

MVH5 HV5VH

'cb ;.«• u£ M

ISSUE THREE: Appellant was denied due process because the jail withheld or destroyed
his papers full of legal casesw

hich Appellant claims is exculpatory evidence and the Court

erred in not requiring the jail to provide the papers to Appellant for trial.
Finally, the Appellant avers a manifest injustice occurred because the warden and the jail
destroyed or withheld his evidence which, because he did not have this evidence to exculpate
himself at trial, through their either willful destruction of his evidence or their refiisal to provide
his evidence for Use

at trial which caused him to lose the trial because he could not produce the

evidence at trial. The Court refused to allow Appellant to have his papers/ evidence given to him
by the DOC & jail. (T.87, T.100) As a result he was denied due process.
The Appellant lost his evidence because he took it with him when he had Court in
another County and was released. He decided to avoid the current trial by checking into a
rehabilitation facility in Pittsburgh and was later picked up and detained m Allegheny County.
When he was returned to Butler County his papers were checked by D.O.C. employees.
Inspection

caused the examiners to get dizzy and ill as they were laced with some drug such as

lined and were therefore not available for him so they said.
fentanyl so the papers were quaran
The evidence Appellant relief upon was his multipage, handwritten, jumble of cases from
i ofjurisdictions. Appellant looks upon his magical lists of cases as if they are
a pot poum o
essential to abolishing Ms legal woes. He believes eases are evidence. Appellant holds that
counsel was ineffective in not obtaining the paperwork containing Ms cases, if withheld by the
warden, or in not reconstructing them if they were destroyed by the warden.
Appellant required counsel to demand a hearing for release of his papers. Appellant
tho

ught counsel should require the warden and his deputies to testify. Appellant believed if the}

WSWH

Kb.:.'- IK ^ Si.Si.ji:'.

were forced to testify they would admit they maliciously withheld Appellant’s papers/ evidence
just to frustrate his defense.
Appellant in a Pro-Se brief asserted “My lawyer Cingolani never called warden down
Bowman or any other CO who said this was true. 1 lost my trial because CO took all my law
work, denied access to court, and violated my right to due process.” Appellant related jail
person al took his law work, legal notes and research saying it was contraband because
employees of the DOC began to experience burning and irritated skin and burning of the eyes so
the warden refused to give back to Appellant’s papers and another deputy said the papers, were
destroyed. Still, it is in the domain of the Superior Court to determine whether counsel erred in
not calling the warden or deputy to testify at a hearing as to why they quarantined or destroyed
Appellant’s trial papers. Did counsel’s failure to call the warden and his deputy to testify cause
the trial court to not require the Appellant to have his papers at trial, and since he did not have
his papers he could not prove his innocence or rebut the Commonwealth’s evidence with his case
law and therefore lost his case through no fault of Appellant’s own and solely at the fault of
Appellant’s counsel? Appellant urges the Court to accept his personal version of the “for want
of a nail in a horseshoe”, due to Ms counsel’s ineffectiveness the shoe was lost, the horse slipped,
the knight fell and the kingdom was lost” proverb to prove Appellant deserves a remand.
Appellant requests a new trial and new counsel because he was denied due process where the
D.O.C. withheld Ms papers of legal cases wMch he calls evidence. Appellant urges tMs Court to
hold the lower Court erred in refusing to order the jail to give Appellant Ms papers for Ms
defense.

il

- • - NVH5 MVSV'H

That Police dogs sniffed false positives for drugs. (T.107)

Ki

C. ri RIBS.?".’. -

\

That the house was surrounded searching for another person. (T.108)
r

That he was in handcuff custody too long. (T.109)
That seeing him flee is not a crime. (T-109,111).
That there was nothing on him when he fled. (T.l 11)
The Appellant asserted his frustration and the magnitude of the harm he suffered because
property was destroyed in jail because it was alleged to he covered, with.fentonyl dust and so he
was denied the opportunity to produce exculpatory evidence and argument. (T.l 15)
The Court erred in allowing the PSP to obtain his DNA and to allow the PSP and
forensics people to check the strange weapon for DNA without his permission of consent DNA
is a sacred bodily fluid which can only be obtained by penetrating his mouth or flesh.
ISSUE TWO: There is no proof Appellant owned the guns found in the same location.
Since blood splattered on these objects, that does not prove the Appellant, a felon
Possessed a weapon in violation of 18 Pa. C.SA. §6105. Even if his fingerprints or DNA was
found on any weapon that is not sufficient to prove he actually possessed or owned the weapons.
Touch alone is not ownership.

iA

..-WHS MVSVH

r.b

CONCLUSION
WHEREFORE, given the proceeding arguments, the relief requested is reversal of the
verdict of the jury and a remand for a new trial.

Respectfully submitted,

•4Armand R CingolaniA
Attorney for Appellant

r.r. ^ M.Ri.V.f. = .V'I|

